Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Postretirement Benefit Costs Claimed for Medicare Reimbursement by Blue Cross Blue Shield of Wyoming for Fiscal Years 1991 Through 2007
July 30, 2008 | Audit A-07-08-00265
Executive Summary
Blue Cross Blue Shield of Wyoming, a Centers for Medicare & Medicaid Services contractor, claimed $104,000 of unallowable postretirement benefit (PRB) costs for fiscal years 1991 through 2007 because it did not claim PRB costs in accordance with its Medicare contract (which relies on the Federal Acquisition Regulation for determination of allowable PRB costs).
Complete Report
Download the complete report  (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS